                            Office of Inspector General
                           Corporation for National and
                                    Community Service




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
FISCAL YEAR 2013 FINANCIAL STATEMENTS

               OIG REPORT 14-01




                       Prepared by:

                Kearney & Company, P.C.
               1701 Duke Street, Suite 500
                Alexandria, Virginia 22314




 This report was issued to Corporation management on December 16, 2013.
 Under the laws and regulations governing audit follow up, the Corporation is to
 make final management decisions on the report’s findings and
 recommendations no later than June 16, 2014, and complete its corrective
 actions by December 16, 2014. Consequently, the reported findings do not
 necessarily represent the final resolution of the issues presented.
                                           December 16, 2013


TO:              Wendy Spencer
                 Chief Executive Officer

FROM:            Stuart Axenfeld /s/
                 Assistant Inspector General for Audit

SUBJECT:         Audit of the Corporation for National and Community Service’s
                 Fiscal Year 2013 Financial Statements, OIG Report 14-01

We contracted with the independent certified public accounting firm of Kearney & Company,
P.C. (Kearney) to audit the consolidated financial statements of the Corporation for National and
Community Service (Corporation) as of September 30, 2013 and 2012, and for the years then
ended. The contract required that the audit be performed in accordance with the Government
Auditing Standards.

In its audit, Kearney found:

     The financial statements present fairly, in all material respects, in accordance with
      accounting principles generally accepted in the United States of America;

     No material weaknesses in the Corporation’s internal control over financial reporting; and

     No instances of noncompliance with applicable provisions of laws, regulations, contracts,
      and grant agreements.

Kearney is responsible for the attached independent auditor’s reports, dated December 16,
2013, and the conclusions expressed therein. The Office of Inspector General does not express
an opinion on the Corporation’s financial statements, or Kearney’s conclusions about the
Corporation’s internal control over financial reporting or compliance with applicable provisions of
laws, regulations, contracts, and grant agreements.

Attachment

cc:      Asim Mishra, Chief of Staff
         Kim Mansaray, Acting Chief Operating Officer
         David Rebich, Chief Financial Officer
         Philip Clark, Chief Information Officer
         Rocco Gaudio, Deputy CFO for Grants and Field Financial Management Center
         Douglas Hilton, Director, Office of Accountability and Oversight
         David Zavada, Engagement Partner, Kearney & Company, P.C.



                     1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                        202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


                            INDEPENDENT AUDITOR’S REPORT

To the Board of Directors and Inspector General of the Corporation for National and Community
Service


Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the Corporation for
National and Community Service (the Corporation), which comprise the consolidated statements
of financial position as of September 30, 2013 and 2012, the related consolidated statements of
operations and changes in net position, the consolidated statements of cash flows, and the
combined statements of budgetary resources (SBR) (hereinafter referred to as the “financial
statements”) for the years then ended, and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of the financial statements in
accordance with accounting principles generally accepted in the United States of America. This
includes the design, implementation, and maintenance of internal control relevant to the
preparation and fair presentation of financial statements that are free from material misstatement,
whether due to fraud or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on the financial statements based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United
States of America; standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the financial
statements in order to design audit procedures that are appropriate in the circumstances, but not
for the purpose of expressing an opinion on the effectiveness of the entity’s internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness
of accounting policies used and the reasonableness of significant accounting estimates made by
management, as well as evaluating the overall presentation of the financial statements.




                                                  1
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Corporation as of September 30, 2013 and 2012, and its net cost of
operations, changes in net position, cash flows, and budgetary resources for the years then ended,
in accordance with accounting principles generally accepted in the United States of America.

Emphasis of Matters

A 2004 Executive Order, entitled “National and Community Service Programs” (E.O. 13331),
requires a statement of assurance in the Corporation’s Management Representation Letter by the
Chief Executive Officer and Chief Financial Officer that its financial statements, including the
SBR, are accurate and reliable. The Corporation has interpreted this requirement to include
presenting the SBR as a principal financial statement. The Corporation’s SBR is prepared in
accordance with accounting principles generally accepted in the United States of America.

As discussed in Note 1 to the financial statements, the Corporation reclassified certain amounts
in the prior year’s combined SBR to conform to the current year’s presentation. These
reclassifications had no effect on the previously reported Statements of Budgetary Resources
balances.

Our opinion is not modified with respect to these matters.

Other Matters

Required Supplementary Information

Accounting principles generally accepted in the United States of America require that
Management’s Discussion and Analysis (hereinafter referred to as the “required supplementary
information”) be presented to supplement the financial statements. This information, although
not a part of the financial statements, is required by the OMB and the Federal Accounting
Standards Advisory Board, who consider it to be an essential part of financial reporting for
placing the financial statements in an appropriate operational, economic, and/or historical
context. We have applied certain limited procedures to the required supplementary information
in accordance with auditing standards generally accepted in the United States of America. These
procedures included inquiries of management about the methods used in preparing the
information and comparing it for consistency with management’s responses to our inquiries, the
financial statements, and other knowledge we obtained during our audits. We do not express an
opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.




                                                 2
Other Information

Our audits were conducted for the purpose of forming an opinion on the financial statements
taken as a whole. The information contained in the Donations and Contributions, National
Service Trust Fund (Trust) Status Report – September 2013, and Improper Payments sections of
the fiscal year 2013 Agency Financial Report is presented for purposes of additional analysis and
is not a required part of the financial statements. Except as described below, such information
has not been subjected to the auditing procedures applied in the audits of the financial
statements, and accordingly, we do not express an opinion or provide any assurance on it.

Certain information from the Trust Status Report – September 2013 statements of financial
position, related statements of operations and changes in net position, statements of cash flows
and combined statements of budgetary resources (hereinafter referred to as the “Trust financial
statements”), as of September 30, 2013, is presented as other information. In accordance with
the requirements of the National and Community Service Act of 1990, as amended, we
performed a separate audit of the Trust financial statements and issued a report thereon, dated
December 16, 2013.

Independent Auditor’s Report on Internal Control over Financial Reporting and
Compliance with Applicable Provisions of Laws, Regulations, Contracts, and Grant
Agreements

In accordance with Government Auditing Standards and OMB Bulletin No. 14-02, we have also
issued a report, dated December 16, 2013, on our consideration of the Corporation’s internal
control over financial reporting and our tests of the Corporation’s compliance with certain
provisions of laws, regulations, contracts, and grant agreements; and other matters for the year
ended September 30, 2013. The purpose of that report is to describe the scope of our testing of
internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on internal control over financial reporting, or on compliance and other
matters. This report is an integral part of an audit performed in accordance with Government
Auditing Standards and OMB Bulletin No. 14-02, and in considering the Corporation’s internal
control over financial reporting and compliance.




Alexandria, Virginia
December 16, 2013




                                                 3
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

            FISCAL YEAR 2013 AND 2012
       CONSOLIDATED FINANCIAL STATEMENTS


(Extracted From Fiscal Year 2013 Agency Financial Report)
The Corporation for National and Community Service




Corporation for National and Community Service
Consolidated Statements of Financial Position as of September 30 (dollars in thousands)


  Assets                                                                                              2013                      2012

  Fund Balance with Treasury (Note 2)                                                     $        914,224              $    965,928
  Trust Investments and Related Receivables (Note 3)                                               693,165                   638,565
  Advances to Others                                                                                56,000                     57,298
  Accounts Receivable, Net (Note 4)                                                                   9,601                     8,483
  Property and Equipment, Net (Note 5)                                                               3,346                      1,610

     Total Assets                                                                         $      1,676,336              $   1,671,884

  Liabilities

  Trust Service Award Liability (Note 6)                                                  $        464,274              $     447,191
  Grants Payable                                                                                   103,125                    100,791
  Accounts Payable                                                                                   4,466                      2,860
  Actuarial FECA Liability (Note 8)                                                                   9,702                     9,783
  Advances from Others                                                                              46,121                     33,696
  Accrued Annual Leave                                                                                4,129                     4,140
  Other Liabilities                                                                                 12,042                     14,220

     Total Liabilities                                                                            643,859                    612,681

  Contingencies (Note 14)                                                                               —                         —

  NET POSITION (Note 9)                                                                   $      1,032,477              $   1,059,203

  Total Liabilities and Net Position                                                      $      1,676,336              $   1,671,884




                                           The accompanying notes are an integral part of these financial statements.




Financial Statements | PART II 	                                                                                                        41
The Corporation for National and Community Service




Corporation for National and Community Service
Consolidated Statements of Operations and Changes
in Net Position for the Periods Ended September 30 (dollars in thousands)


  Revenue                                                                                           2013                      2012

  Appropriated Capital Used                                                              $       808,085              $    824,684
  Appropriations Received by the National Service Trust (Note 10)                                223,568                    211,916
  Interest                                                                                          3,133                     4,434
  Revenue from Services Provided                                                                   34,816                    18,834
  Other                                                                                            17,231                    13,953

     Total Revenue                                                                       $     1,086,833              $   1,073,821

  Expenses

  AmeriCorps                                                                             $       778,211              $     792,475
  SeniorCorps                                                                                    223,235                    222,315
  Learn and Serve America                                                                           6,048                    17,801
  Innovation, Demonstration and Assistance Activities                                              47,355                    34,748
  Office of the Inspector General                                                                   3,392                     5,241

     Total Expenses (Note 11)                                                                  1,058,241                  1,072,580

  Net of Revenue Over Expenses                                                           $        28,592              $       1,241

  Net Position

  Net of Revenue over Expenses                                                           $         28,592             $       1,241
  Increase/(Decrease) in Unexpended Appropriations, Net (Note 13)                                (55,318)                  (11,257)
  Increase/(Decrease) in Net Position, Net                                                       (26,726)                   (10,016)
  Net Position, Beginning Balance                                                              1,059,203                  1,069,219

  Net Position, Ending Balance (Note 9)                                                  $     1,032,477              $   1,059,203




                                         The accompanying notes are an integral part of these financial statements.




Financial Statements | PART II 	                                                                                                       42
The Corporation for National and Community Service




Corporation for National and Community Service
Consolidated Statements of Cash Flows for the Periods Ended September 30 (dollars in thousands)


  CASH FLOWS FROM OPERATING ACTIVITIES                                                               2013                       2012

  Net of Revenue over Expenses                                                            $         28,592             $       1,241

  Adjustments Affecting Cash Flow:
     Depreciation, Amortization, and Loss on Disposition of Assets                                     801                        88
     Amortization of Premium/Discount on Investments                                                 1,795                    (2,811)
     Appropriated Capital Used                                                                   (808,085)                 (824,684)
     Appropriations Received in Trust                                                            (223,568)                  (211,916)
     Decrease/(Increase) in Accounts Receivable                                                     (1,118)                    (876)
     Decrease/(Increase) in Interest Receivable                                                        136                       385
     Decrease/(Increase) in Advances to Others                                                       1,298                     7,644
     Increase/(Decrease) in Accounts Payable and Other Liabilities                                   (571)                     3,031
     Increase/(Decrease) in Advances from Others                                                    12,425                    33,629
     Increase/(Decrease) in FECA and Annual Leave Liabilities                                          (92)                      710
     Increase/(Decrease) in Trust Liability                                                         17,083                    36,930
     Increase/(Decrease) in Grants Payable                                                           2,334                  (14,406)

  Total Adjustments                                                                              (997,562)                 (972,276)
  Net Cash Provided/(Used) by Operating Activities                                              (968,970)                  (971,035)

  CASH FLOWS FROM INVESTING ACTIVITIES

  Sales of Securities                                                                             729,799                    831,264
  Purchase of Assets                                                                               (2,537)                     (772)
  Purchase of Securities                                                                         (786,331)                 (861,742)

  Net Cash Provided/(Used) in Investing Activities                                                (59,069)                  (31,250)

  CASH FLOWS FROM FINANCING ACTIVITIES

  Appropriations Received, Net of Trust                                                         1,048,884                  1,050,870
  Rescissions and Cancellations                                                                   (72,549)                  (25,527)

  Net Cash Provided by Financing Activities                                                       976,335                  1,025,343

  Net Increase/(Decrease) in Fund Balance with Treasury		                                         (51,704)                   23,058

  Fund Balance with Treasury, Beginning                                                           965,928                   942,870

  Fund Balance with Treasury, Ending                                                      $       914,224                   965,928



                                          The accompanying notes are an integral part of these financial statements.

Financial Statements | PART II 	                                                                                                        43
The Corporation for National and Community Service




Corporation for National and Community Service
Combined Statements of Budgetary Resources for the Periods Ended September 30 (dollars in thousands)

BUDGETARY RESOURCES		                                                                            2013	                      2012


Unobligated balance, brought forward, October 1	           $	                                      205,105	   $	             156,728
Adjustment to unobligated balance brought forward, Oct 1		                                               (5)		                      -
 Unobligated balance brought forward, Oct 1, as adjusted		                                         205,100		                 156,728
Recoveries of prior year unpaid obligations		                                                        33,850 		                 28,175
Other changes in unobligated balance (+ or -)	              	                                      (17,692)		                (23,546)
Unobligated balance from prior year budget authority, net		                                        221,258 		                161,357


Budget authority:				
Appropriation Discretionary		                     1,048,884 		                                                              1,050,870
Appropriation (special or trust fund)		             223,770		                                                                 212,122
Permanent Reduction – New Budget Authority		       (54,857)		                                                                  (1,986)
Appropriation Discretionary (total)		             1,217,797 		                                                              1,261,006
Appropriation Mandatory (special or trust fund)		     1,295 		                                                                   3,856
Appropriations (discretionary and mandatory)		    1,219,092 		                                                              1,264,862


Spending authority from offsetting collections:				
Spending Authority from offsetting collections (total)		 52,845 		                                                             54,547

Total budgetary resources	                                                                 $	     1,493,195	           $	   1,480,766

STATUS OF BUDGETARY RESOURCES					

Obligations incurred	
Obligations incurred (total) (Note 17)	                                                    $	     1,279,940	           $	   1,275,661

Unobligated balance					
Apportioned		52,837		35,030
Unobligated balance not available	       	 160,418		 170,075
Total unobligated balance, end of year		   213,255		 205,105

Total budgetary resources	                                                                 $	     1,493,195	           $	   1,480,766

				(Continued)	




                                          The accompanying notes are an integral part of these financial statements.




Financial Statements | PART II 	                                                                                                         44
The Corporation for National and Community Service



				(Continued)	



Corporation for National and Community Service
Combined Statements of Budgetary Resources for the Periods Ended September 30 (dollars in thousands)

CHANGE IN OBLIGATED BALANCE	                                                                    2013	2012


Unpaid obligations:
Unpaid obligations, brought forward, October 1	      $	 1,393,997	 $	 1,387,883
Obligations incurred		                                  1,279,941		   1,275,661
Outlays (gross) (-)		 (1,252,314)		 (1,241,372)
Recoveries of prior year unpaid obligations, actual		    (33,845)		    (28,175)
Unpaid Obligations, end of year 		                      1,387,779		   1,393,997

Uncollected Payments:
Uncollected payments, Federal Sources, brought forward, October 1		                                  (106)		                   (539)
Change in uncollected customer payments, Federal sources		                                               2		                     433
Uncollected payments, Federal Sources, end of year		                                                 (104)		                   (106)

Memorandum entries:
Obligated balance, start of year	                                                          $ 	 1,393,891	             $	   1,387,344
Obligated balance, end of year	                                                           $	    1,387,675	            $	   1,393,891



Budget Authority and Outlays, Net					

Budget authority, gross (discretionary and mandatory)	        $	                                1,271,937	 $	              1,319,409
Actual offsetting collections		                                                                  (52,847)		                 (54,980)
Change in uncollected customer payments from federal sources		                                          2		                      433
Budget authority, net (discretionary and mandatory)	          $	                                1,219,092	 $	              1,264,862

Outlay, gross (discretionary and mandatory)		                                                   1,252,314 		               1,241,372
Actual offsetting collections		                                                                  (52,847)		                 (54,980)
Outlays, net (discretionary and mandatory)		                                                    1,199,467 		               1,186,392
Distributed offsetting receipts		                                                               (224,088)		                (213,058)

Agency Outlays, net (discretionary and mandatory)	                                        $	      975,379	            $	    973,334




                                         The accompanying notes are an integral part of these financial statements.




Financial Statements | PART II 	                                                                                                       45
The Corporation for National and Community Service



NOTE 1—Summary of Significant Accounting Policies                               • S alaries and Expenses, from which the Corporation funded its
                                                                                  general administrative expenses.
                                                                                • Office
                                                                                       of Inspector General, from which CNCS funded the expenses of
A. REPORTING ENTITY                                                               the OIG.
The Corporation for National and Community Service (CNCS) was created
                                                                                • A meriCorps VISTA Advance Payment Revolving Fund, from which
by the National and Community Service Trust Act of 1993 (Public Law
                                                                                  CNCS paid the living allowances for AmeriCorps VISTA members
103-82). CNCS’ mission is to improve lives, strengthen communities,
                                                                                  enrolled under cost share agreements with sponsoring organizations.
and foster civic engagement through service and volunteering. To meet
                                                                                  CNCS is reimbursed for these costs by the sponsoring organization.
its mission, CNCS provides grants and other assistance to states,
                                                                                  Despite the account title, the AmeriCorps VISTA Advance Payment
local municipalities, and nonprofit organizations to help communities
                                                                                  Revolving Fund is not a revolving fund, but rather a general fund
meet critical challenges in the areas of education, healthy futures,
                                                                                  expenditure account.
environmental stewardship, economic opportunity, disaster services, and
assisting veterans and military families through volunteer service. CNCS’     On February 17, 2009, the President signed into law the American
major programs are:                                                           Recovery and Reinvestment Act of 2009 (Recovery Act). The Recovery
                                                                              Act included funding for the use of CNCS to support an expansion of
Senior Corps. Senior Corps offers a network of programs that tap into
                                                                              the AmeriCorps State and National and VISTA programs. As a result
the rich experience, skills and talents of older citizens to meet community
                                                                              of the passage of the Recovery Act, three additional appropriated funds
challenges. Senior Corps comprises the RSVP, the Foster Grandparent
                                                                              were established:
Program, and the Senior Companion Program.
                                                                                • Operating Expenses, Recovery Act, from which CNCS funded the
AmeriCorps. AmeriCorps provides opportunities for Americans to make an             increased AmeriCorps State and National and VISTA membership as
ongoing, intensive commitment to service through the following programs:           a result of the Recovery Act.
  • State, National, Tribes, and Territories (State and National) offers       • Salaries and Expenses, Recovery Act, which funded CNCS’ expenses
     grants supporting a broad range of local service programs that                to improve IT systems and administer the increased AmeriCorps State
     engage thousands of Americans in intensive service to meet critical           and National and VISTA membership.
     community needs;                                                           • Office of Inspector General, Recovery Act, from which CNCS funded
  • AmeriCorps Volunteers in Service to America (VISTA) helps                     the expenses of the OIG’s Recovery Act oversight responsibilities.
     community organizations and public agencies create and expand
     programs that build capacity and ultimately bring low-income             B. BASIS OF ACCOUNTING
     individuals and communities out of poverty; and                          The accompanying financial Statements include all funds administered
                                                                              by CNCS, as delineated in Note 1A—Reporting Entity. They include
  • National Civilian Community Corps (NCCC) strengthens communities
                                                                              CNCS’ activities related to providing grants and other assistance to
     while developing leaders through direct, team-based national and
                                                                              eligible states, local governments, and nonprofit organizations as well as
     community service.
                                                                              education awards to eligible national service participants. All significant
CNCS, for the most part, administered its programs in fiscal year 2013        intra-entity transactions and balances are eliminated in consolidation.
from the following funds:
                                                                               C. FINANCIAL STATEMENT PRESENTATION AND
  Trust and Gift Funds:                                                       CONSOLIDATION POLICY
  • National Service Trust (the Trust), from which CNCS provided             The accompanying financial statements report CNCS’ financial position,
     education awards and interest forbearance for volunteers under the       results of operations, and cash flows, as required by the Government
     AmeriCorps State and National; NCCC; and VISTA programs.                 Corporation Control Act (GCCA). As required by GCCA, the principal
  • Gifts and Contributions, into which CNCS deposited qualified gifts       financial statements of CNCS are the:
     and contributions from individuals and organizations from which            • S tatement of Financial Position, which reports the status of
     approved expenditures are made furthering CNCS’ goals.                       Corporation assets, liabilities, and net position;
                                                                                • S tatement of Operations and Changes in Net Position, which reports
  Appropriated Funds:
                                                                                  CNCS’ revenues and expenses for the year and the changes in net
  • Operating Expenses, from which the Corporation funded Senior
                                                                                  position that occurred during the year; and
     Corps, AmeriCorps and other program activity.



Financial Statements | PART II 	                                                                                                                        46
The Corporation for National and Community Service



  • Statement of Cash Flows, which shows how changes in CNCS’                 F. FUND BALANCE WITH TREASURY
     financial position and results affected its cash (Fund Balance with       CNCS considers Fund Balance with Treasury (FBWT) to represent cash
     Treasury), and breaks the analysis down according to operating,           and cash equivalents. It is CNCS’ cash accounts with the Department
     investing, and financing activities.                                      of the Treasury (the Treasury). The Treasury processes cash receipts and
                                                                               disbursements on behalf of CNCS and CNCS’ accounting records are
The financial statements are presented in accordance with the accounting       reconciled with those of the Treasury on a regular basis. CNCS’ FBWT
principles generally accepted in the United States of America (GAAP), as       includes all of its appropriated and trust funds.
applicable to federal government corporations. The Federal Accounting
Standards Advisory Board (FASAB) is the standard setting body for the          The FBWT maintained in the National Service Trust is restricted to specific
federal government. Statement of Federal Financial Accounting Standards        purposes, such as paying service awards earned by eligible participants,
Number 34 (SFFAS 34) provides that financial statements prepared               and is not available for use in the current operations of CNCS. In addition,
by certain government corporations in conformity with the accounting           the majority of the funds received from individuals and organizations for
standards issued by the Financial Accounting Standards Board (FASB)            deposit in the Gifts and Contributions fund are restricted for particular
are regarded as being in conformity with GAAP. As provided by SFFAS            uses, such as service projects.
34, where there is no standard issued by FASB applicable to the federal
                                                                               G. INVESTMENTS AND RELATED RECEIVABLES
corporation the financial statements are presented in accordance with the
                                                                               By law, CNCS may invest the funds of the National Service Trust in
accounting standards issued by FASAB.
                                                                               interest-bearing Treasury securities guaranteed by the United States
In addition, under Executive Order 13331, National and Community               as to principal and interest. These Treasury securities are referred to
Service Programs, CNCS must prepare a Combined Statement of                    as “market-based,” since they mirror actual Treasury securities sold
Budgetary Resources as a principal statement. The accompanying                 on the open market. They consist of Treasury notes, bonds, bills and
Combined Statements of Budgetary Resources have been prepared in               one-day certificates.
accordance with GAAP, as prescribed by FASAB. The Combined Statement
                                                                               Since they are expected to be held-to-maturity, CNCS’ investments
of Budgetary Resources presents additional details to include activity that
                                                                               are valued at cost and adjusted for the amortization of premiums and
is significant to the CNCS.
                                                                               discounts. The premiums and discounts are recognized as adjustments to
CNCS’ consolidation policy requires the consolidation of all funds             interest income, using the effective interest method. Interest receivable
administered by CNCS, as delineated in Note 1A—Reporting Entity.               represents amounts earned, but not received on investments held at
                                                                               year-end. Prepaid interest is the amount of interest earned on a security
D. BUDGETS AND BUDGETARY ACCOUNTING                                            since the date of its last interest payment, up to the date the security is
The activities of CNCS are primarily funded through the annual                 purchased by CNCS. Such interest, if any, at year-end is included in the
Departments of Labor, Health and Human Services, Education and                 interest receivable balance.
Related Agencies Appropriation Act. CNCS’ accounting structure reflects
both accrual and budgetary accounting transactions. Under the accrual          H. CASH EQUIVALENTS
method of accounting, revenues are recognized when earned and                  For purposes of the statement of cash flows, CNCS considers all interest-
expenses are recognized when incurred, without regard to the actual            bearing Treasury securities guaranteed by the United States to be cash
collection or payment of cash. Federal budgetary accounting recognizes         equivalents.
the obligation of appropriations and other funds upon the establishment
                                                                               I. ADVANCES TO OTHERS
of a properly documented legal liability, which, in many cases, is different
                                                                               CNCS advances funds to non-federal entities, primarily in response
from the recording of an accrual-based transaction. The recognition of
                                                                               to grantee drawdown requests, to facilitate their authorized service
budgetary accounting transactions is essential for compliance with legal
                                                                               activities. The cash payments to grantees, in excess of amounts
controls over the use of federal funds.
                                                                               appropriately expended under the terms of the grant agreements, are
E. ASSET AND LIABILITY VALUATION                                               accounted for as advances. At the end of the fiscal year, the total amount
CNCS values its investments at carrying value and discloses fair value. As     advanced to grantees is compared with the total CNCS-funded amount of
of September 30, 2013, the carrying amounts of Fund Balance with Treasury,     grant expenses properly incurred by the grantees. Grantee expenses are
Accounts Receivable, Advances to Others, Accrued Interest Receivable,          determined from reports submitted by the grantees. For those grantees
Accounts Payable and Other Liabilities approximate their fair value.           with advances exceeding expenses, the aggregate difference is reported
                                                                               as the advance account balance.


Financial Statements | PART II 	                                                                                                                         47
The Corporation for National and Community Service



J. ACCOUNTS RECEIVABLE                                                        AmeriCorps NCCC and VISTA members injured on the job, employees who
Accounts receivable represents amounts due to CNCS primarily under            have incurred a work-related occupational disease, and beneficiaries
federal and non-federal reimbursable agreements, grantee audit                of employees whose death is attributable to a job-related injury or
resolution determinations, and outstanding travel advances due from           occupational disease. Claims incurred for benefits for Corporation
employees. An allowance for doubtful accounts is established for              employees and members under FECA are determined and paid by the
reporting purposes based on past experience.                                  Department of Labor (DOL) and later billed to CNCS. CNCS’ actuarial
                                                                              liability for workers’ compensation includes costs incurred, but unbilled as
K. PROPERTY AND EQUIPMENT                                                     of year-end, as calculated by DOL. CNCS reimburses DOL for FECA claims
Property and Equipment is stated at full cost, including all costs related    out of current appropriations upon receipt of a bill from DOL.
to acquisition, delivery, and installation, less accumulated depreciation
(or amortization). Normal maintenance and repair costs on capitalized         P. OTHER LIABILITIES
property and equipment are expensed when incurred.                            Other liabilities include amounts owed but not paid at the end of the fiscal
                                                                              year for payroll and benefits, AmeriCorps VISTA stipends, the amount
CNCS’ general policy is to capitalize Property and Equipment if the           of claims for benefits for Corporation employees under FECA that have
initial acquisition price is $50 thousand or more. Property and               been paid by DOL and billed to CNCS but have not yet been reimbursed to
equipment with an estimated useful life that extends beyond the year          DOL, and imputed costs for future retirement and health care benefits as
of acquisition is capitalized at historical cost and is depreciated (or       determined by an Office of Personnel Management calculation.
amortized) on a straight-line basis over estimated useful lives ranging
from two to 10 years.                                                         Q. ACCRUED ANNUAL LEAVE
                                                                              Annual leave is accrued as a liability based on amounts earned but not
L. TRUST SERVICE AWARD LIABILITY                                              used as of the fiscal year-end. Each year, the balance in the accrued
The Trust Service Award Liability represents unpaid earned, and               annual leave account is adjusted to reflect current year pay rates and
expected to be earned, education awards and eligible student loan             leave balances. Annual leave is funded from current appropriations when
interest forbearance costs expected to be used. These amounts relate          used. As unused annual leave is used in the future, financing will be
to participants who have completed service or are currently enrolled          obtained from appropriations current at that time. Sick leave and other
in the program and are expected to earn an award, based on CNCS’              types of non-vested leave are also expensed when used.
historical experience.
                                                                              R. ADVANCES FROM OTHERS
M. GRANTS PAYABLE                                                             Advances from others consist of advances from other federal agencies
CNCS awards grants to nonprofit organizations, educational institutions,      and the public related to interagency and cost share agreements into
states, municipalities, and other external organizations. Grants become       which CNCS entered to provide services.
budgetary obligations, but not liabilities, at the time they are awarded.
                                                                              S. NET POSITION
Although most grantees request funds prior to incurring expenses, some        Net Position represents Net Assets. It is comprised of CNCS’ unexpended
incur expenditures prior to initiating a request for disbursement, based      appropriations and its cumulative results of operations. Unexpended
on the nature of the expenditures. At the end of the fiscal year, CNCS        appropriations reflect the balance of appropriated authority granted to
computes and reports an estimate of the amount of unreimbursed grantee        CNCS against which no outlays have been made. Cumulative results of
expenses as grants payable. This accrual is based on an analysis of the       operations represent the net differences between revenues and expenses
amounts actually disbursed to grantees in the third quarter.                  from the inception of CNCS.
N. ACCOUNTS PAYABLE                                                           T. REVENUE RECOGNITION
CNCS records as liabilities all amounts that are likely to be paid as a       Appropriated Capital Used. CNCS recognizes its use of appropriated
direct result of a transaction or event that has already occurred. Accounts   capital as revenue at the time it is expended or accrued to pay program
payable represents amounts due to external entities for goods and             or administrative expenses. Appropriations expended for property and
services received by CNCS, but not paid for at the end of the fiscal year.    equipment are recognized as used when the property is purchased.
O. ACTUARIAL FECA LIABILITY                                                   Appropriated capital not expended within five fiscal years after it
The Federal Employees’ Compensation Act (FECA) provides income                became available for obligation is cancelled. Unpaid obligations recorded
and medical cost protection to covered federal civilian employees,            against cancelled appropriated capital are paid from currently available




Financial Statements | PART II 	                                                                                                                       48
The Corporation for National and Community Service



appropriated funds as payments become due. Appropriations received            V. INCOME TAXES
for CNCS’ Trust are recognized as revenue when received in the Trust          As a federal entity, CNCS is exempt from all income taxes imposed by
Fund. Trust appropriations do not expire with the passage of time and         any governing body, Federal, State, commonwealth, local, or foreign
are retained by CNCS in the Trust until used for eligible education service   government.
award purposes.
                                                                              W. USE OF ESTIMATES
Interest on Investments. Interest income is recognized when earned.           The preparation of financial statements in accordance with GAAP
Treasury notes and bonds pay interest semi-annually, based on the stated      requires CNCS to make estimates and assumptions about future events.
rate of interest. Interest on Treasury bills is paid at maturity. Interest    These estimates and assumptions affect the amounts reported in
income is adjusted by amortization of premiums and discounts using the        CNCS’ financial statements and accompanying notes. CNCS evaluates
effective interest method.                                                    its estimates and assumptions on an ongoing basis using historical
                                                                              experience and other factors that it believes to be reasonable under
Revenue from Services Provided. CNCS also receives income from                the circumstances. Adjustments to estimates and assumptions are
reimbursable service agreements that is recorded as revenue from              made when facts and circumstances warrant. As future events and
services provided. Revenue from services provided is recognized when          their effects cannot be determined with certainty, actual results could
earned, i.e., goods have been delivered or services rendered.                 differ from the estimates used in preparing the accompanying financial
Gifts and Donations. Revenue is recognized at the time gifts and              statements. Significant estimates and assumptions are required as part
donations are received and deposited in the Treasury to the credit of the     of determining the liability for service awards, grants payable, and grant
Gifts and Contributions Fund.                                                 advances.

U. RETIREMENT BENEFITS                                                        X. Comparative Data
CNCS’ employees participate in either the Civil Service Retirement System     CNCS financial statements provide comparative information for FY 2013
(CSRS) or the Federal Employees Retirement System (FERS). FERS was            and 2012. Certain prior year amounts have been reclassified to conform
established by the enactment of Public Law 99-335. Pursuant to this law,      to current year presentation and better reflect CNCS’ operations under its
FERS and Social Security automatically cover most employees hired after       reauthorization. Specifically, the Statement of Budgetary Resources was
December 31, 1983. Employees hired prior to January 1, 1984 elected to        realigned as prescribed by FASAB. In addition, amounts presented on the
join FERS and Social Security or remained in the CSRS.                        Statement of Budgetary Resources as Refunds and Recoveries temporarily
                                                                              precluded from obligations in the prior year were adjusted per OMB
For employees covered by CSRS, CNCS contributes 7.0 percent of their          guidance and are reflected as Adjustment to unobligated balance brought
basic pay. For those employees covered by FERS, CNCS contributes 11.2         forward, Oct 1 for the period ended September 30, 2013.
percent of their gross pay towards retirement. Employees are allowed to
participate in the Federal Thrift Savings Plan (TSP). For employees under     Y. CONCENTRATION OF RISKS
FERS, CNCS contributes an automatic one percent of basic pay to TSP and       Congress annually considers whether to fund CNCS’ program and
matches employee contributions up to an additional 4 percent of pay, for      operational activities. Should Congress opt not to enact appropriations
a maximum CNCS contribution amounting to 5 percent of pay. Employees          to fund them, CNCS would be unable to continue operations. Corporation
under CSRS may participate in the TSP, but will not receive either CNCS’      management believes the risk of such an occurrence is remote.
automatic or matching contributions.




Financial Statements | PART II 	                                                                                                                       49
The Corporation for National and Community Service



                                                                             Funds from the National Service Trust may be expended for the purpose
                                                                             of providing an education award or student loan interest forbearance
NOTE 2—Fund Balance with Treasury
                                                                             payment and are made directly to a qualified institution (college,
U.S. Government cash is accounted for on an overall consolidated basis by
                                                                             university, or other approved educational institution, or a
the U.S. Department of Treasury. The Fund Balance with Treasury line on
                                                                             lending institution holding an existing student loan) as designated
the Statement of Financial Position consists of the following:
                                                                             by the participant. The National Service Trust also pays awards under
Appropriated Funds—Appropriated funds are received through                   the President’s Freedom Scholarship, Summer of Service, and Silver
congressional appropriations to provide financing sources for CNCS’          Scholar programs.
programs on an annual, multi-year, and no-year basis.
                                                                             Gift Funds—Gift Funds are funds received from individuals and
Trust Funds—Trust funds are accounts designated by law for receipts          organizations as donations in furtherance of the purposes of national
earmarked for specific purposes and for the expenditure of these receipts.   service laws.



Fund Balance with Treasury as of September 30, 2013 (dollars in thousands)

Type	                                                Unrestricted	Restricted	                                                        Total

Appropriated Funds		                                     $	 912,962 	                     $	         -	                           $	 912,962
Trust Funds			                                                    -	                      	       611 		                                 611
Gift Funds		                                         	            -		                             651 		                                 651
Total		
      $	 912,962 	                                                                        $	    1,262 	                           $	 914,224




Fund Balance with Treasury as of September 30, 2012 (dollars in thousands)

Type	                                                Unrestricted	Restricted	                                                        Total

Appropriated Funds		                                     $	 960,310 	                     $	         -	                           $	 960,310
Trust Funds			                                                    -	                      	     4,951 		                               4,951
Gift Funds		                                         	            -		                             667 		                                 667
Total		                                               $	 960,310 	                        $	    5,618 	                           $	 965,928




Financial Statements | PART II 	                                                                                                                     50
The Corporation for National and Community Service



NOTE 2—Fund Balance with Treasury—Continued

Unexpended Balances as of September 30, 2013 (dollars in thousands)

Type	                                                Unrestricted	Restricted	               Total

FBWT		                                               $	 912,962 	         $	   1,262 	   $	 914,224
Investments and Related Receivables		                	             -		 693,165 		 693,165
Total		                                              $	 912,962 	         $	 694,427 	   $	1,607,389




Status of Unexpended Balances as of September 30, 2013 (dollars in thousands)

Type	                                                Unrestricted	Restricted	               Total

Unobligated:
   Available		                                       $	 117,527 	         $	 51,990 	    $	 169,517
   Unavailable	                             		                     - 		        50,197 		     50,197
Obligated not yet Disbursed		                        	      795,435 		 592,240 		 1,387,675
Total		                                                  $ 	 912,962 	    $	 694,427 	   $	1,607,389




Unexpended Balances as of September 30, 2012 (dollars in thousands)

Type	                                                Unrestricted	Restricted	               Total

FBWT		                                               $	 960,310 	         $	   5,618	    $	 965,928
Investments and Related Receivables		                	             -		 638,565		638,565
Total		                                              $	 960,310 	         $	 644,183 	   $	1,604,493




Status of Unexpended Balances as of September 30, 2012 (dollars in thousands)

Type	                                                Unrestricted	Restricted	               Total

Unobligated:
   Available		                                           $	 130,960	      $	 79,642 	    $	 210,602
   Unavailable	                             		                     - 		             - 		            -
Obligated not yet Disbursed		                        	      829,350 		 564,541 		 1,393,891
Total		                                                  $ 	 960,310 	    $	 644,183 	   $	1,604,493




Financial Statements | PART II 	                                                                        51
The Corporation for National and Community Service



NOTE 3—National Service Trust Investments and Related Receivables
The composition of National Service Trust Investments and Related receivables at September 30 is as follows:


Investments and Related Receivables as of September 30 (dollars in thousands)

	                                                                                          2013	2012

Investments, Carrying Value	                                                   $	        692,243 	                       $	         637,507
Interest Receivable		                                                                        922 		                                   1,058	
Total	                                                                         $	        693,165 	                        $	        638,565




Amortized Cost and Fair Value of Investment Securities as of September 30, 2013 (dollars in thousands)

		                                                                                    Unrealized			
Securities	 Amortized Cost	                                                          Gains/(Losses)	 Fair Value

Notes	                                  $	     512,220 	                            $	        1,560 	                          $	    513,780
Bills		                                        180,023 		                                        11		                                180,034
Total	                                  $	     692,243 	                            $	        1,571 	                          $	    693,814




Amortized Cost and Fair Value of Investment Securities as of September 30, 2012 (dollars in thousands)

		                           Unrealized			
Securities	 Amortized Cost	 Gains/(Losses)	 Fair Value

Notes	                                  $	     477,115 	                            $	        3,045 	                          $	    480,160
Bills		                                        160,392 		                                            5		                             160,397
Total	                                  $	     637,507 	                            $	        3,050 	                          $	    640,557




At September 30, 2013, the notes held at year-end had an interest rate         Since fiscal 2003, CNCS has set aside in reserve a portion of the funds in
range of 0.250 percent to 4.25 percent and an outstanding maturity             the National Service Trust for use in the event that its estimates used to
period of approximately seven days to three years. The bills held at year-     calculate obligational amounts for education awards prove to be too low.
end had an interest rate range of 0.000 percent to 0.175 percent and were      This reserve was originally required by the Strengthen AmeriCorps Program
all due to mature within 364 days. The par values of these bills range from    Act, and is now required by section 149(b) of the National and Community
$.2 million to $33.0 million. The fair value of the bills and notes is based   Service Act (42 U.S.C. 12606(b)). As of September 30, 2013, $50.2 million
on bid and ask prices quoted by the Treasury as of September 30, 2013          of CNCS’ investment account has been set aside for this reserve.
and 2012.




Financial Statements | PART II 	                                                                                                                      52
The Corporation for National and Community Service



NOTE 3—Trust Investments and Related Receivables—Continued
Investments held at September 30 mature according to the following schedule:


Maturation of Securities Held as of September 30 (dollars in thousands)

	                                                                2013	2012

	                                              Amortized			                                       Amortized
Held-to-Maturity Securities	                     Cost		   Fair Value	                               Cost		           Fair Value

Due in 1 year or less	                        $	 441,185 	             $	      441,710 	         $	 327,537 	   $	       327,780
Due after 1 year up to 5 years		                     251,058 	         	       252,104 		            309,970 		          312,777
Total	                                        $	 692,243	              $	693,814	                $	637,507	     $	 640,557




NOTE 4 – Accounts Receivables, Net

Accounts Receivable as of September 30 (dollars in thousands)

	                                                                Appropriated Funds	        Trust Fund	              Total

2013
Accounts receivable		                                            $	    9,962 	             $	      281	         $	 10,243
Less: allowance for loss on receivables			                             (595)		                     (47)		               (642)
Accounts Receivable, Net		                                       $	    9,367 	             $	      234 	        $	      9,601 	


2012
Accounts receivable		                                            $	    8,616 	             $	      289	         $	      8,905
Less: allowance for loss on receivables			                             (384)		                     (38)		               (422)
Accounts Receivable, Net		                                       $	    8,232 	             $	      251	         $	      8,483	




Financial Statements | PART II 	                                                                                                   53
The Corporation for National and Community Service



NOTE 5—Property and Equipment, Net

General Property and Equipment as of September 30, 2013 (dollars in thousands)

Major Class	                       Service Life (Years)	                  Cost	            Accumulated Depreciation	           Net Book Value

Equipment	                                3 - 10	                  $	      2,586	                $	           (2,065)	            $	        521
ADP software	                               2		                           11,983 		                           (9,158)		                   2,825
Total		                                                            $	     14,569 	               $	          (11,223)	            $	      3,346



NOTE 5—Property and Equipment, Net—Continued

General Property and Equipment as of September 30, 2012 (dollars in thousands)

Major Class	                       Service Life (Years)	                  Cost	            Accumulated Depreciation	           Net Book Value

Equipment	                                3 - 10	                  $	      2,586	                $	           (1,863)	            $	        723
ADP software	                               2		                            9,446		                            (8,559)		                     887
Total		                                                            $	     12,032 	               $	          (10,422)	            $	      1,610




Depreciation Expense for the period ending September 30 (dollars in thousands)

Major Class	                                               2013	                               2012

Equipment	                                          $	         202	                     $	(208)	
ADP software		                                                 599		                                  296	
Total	                                              $	 801	                             $	88	




NOTE 6—Trust Service Award Liability                                          forbearance interest on qualified student loans during the period members
Individuals who successfully complete terms of service in AmeriCorps          perform community service, as well as awards under the Presidential
programs earn education awards, which can be used to make payments            Freedom Scholarship Program. The award liability components related to
on qualified student loans or for educational expenses at qualified           education awards and interest forbearance have been adjusted, based
educational institutions. The awards, which are available to use for a        on historical experience, to reflect the fact that some eligible participants
period of up to seven years after the benefit has been earned, are paid       may not use these benefits. The Service Award was composed of the
from the National Service Trust. The National Service Trust also pays         following as of September 30:




Financial Statements | PART II 	                                                                                                                        54
The Corporation for National and Community Service




Service Award Liability as of September 30 (dollars in thousands)

	                                                                                      2013	2012

Education awards	                                                            $	 2,301,708 	                             $	        2,109,437
Interest forbearance		                                                                  79,604		                                    72,256
President’s Freedom Scholarship Program		                                               22,527 		                                   22,527
Total estimated service award liability		                                          2,403,839 		
                                                                                              2,204,220
Less: cumulative awards paid	                                                	     1,939,565 		                                   1,757,029
Total	                                                                       $	        464,274 	                        $	         447,191 	



The net Service Award Liability as of September 30, 2013 increased           liability was accrued for those educational awards. The Summer of Service
by approximately $17.1 million from the net Service Award Liability as       program was only funded in FY 2010.
of September 30, 2012. This change was largely due to new member
enrollments related to FEMA Corps and an increase in the number of           NOTE 7—Operating Leases
members still serving during the year. Past CNCS appropriations made         CNCS leases office space through the General Services Administration
amounts from the National Service Trust available for $1,000 scholarships    (GSA). GSA charges CNCS a Standard Level Users Charge that
for high school students known as Presidential Freedom Scholarships. To      approximates commercial rental rates for similar properties. The NCCC
fund each scholarship, a local community or corporate source matched         also leases housing and other facilities for its campuses. Additionally,
the $500 portion of the scholarship provided by CNCS. The program was        CNCS leases motor vehicles on an annual basis through GSA under an
discontinued in fiscal 2007; however, because students have up to seven      Interagency Fleet Management Service agreement for the NCCC. The
years to use the scholarship, some payments will continue to be made         leases are renewable with no purchase or escalation clause. The following
through FY 2014. As of October 1, 2009, the National Service Trust is also   schedule presents future minimum rental commitments under operating
available to pay Summer of Service and Silver Scholar educational awards.    leases that have initial or remaining non-cancellable lease terms in
However, the Silver Scholar program was not funded and no current            excess of one year as of September 30.




Estimated Operating Lease Commitments as of September 30 (dollars in thousands)

	2013	                                                                                                             2012

	 Fiscal	              Facilities				                Facilities
	  Year	                Space	 Vehicles	Other	 Total	 Space	 Vehicles	Other	 Total	

	 2013	           $	           -	     $	       -	      $	     -	      $	          -	      $	   9,861 	   $	     766 	        $	     339	       $	 10,966
	 2014		                10,059 		           953		           354 		 11,366		                    9,846		          788 		              294		 10,928
	2015		 10,115		 873		 303		11,291		 10,151		                                                                   819		 279		11,249
	2016		 10,401		 874		 287		11,562		 10,465		                                                                   851		 272		11,588
	2017		 10,696		 733		 287		11,716		 10,790		                                                                   884		 272		11,946
	2018	            	     11,000 		           750 		          287 		 12,037 		                       - 		            - 		                - 		            -
	Total	           $	 52,271	          $	 4,183	        $	1,518	       $	57,972	           $	 51,113	     $	 4,108	           $	1,456	          $	56,677




Financial Statements | PART II 	                                                                                                                       55
The Corporation for National and Community Service



NOTE 8—Actuarial FECA Liability                                                     period. Consistent with past practice, these projected annual benefit
CNCS’ actuarial liability for future workers’ compensation benefits                 payments have been discounted to present value using the Office of
under FECA was $9.7 and $9.8 million as of September 30, 2013 and                   Management and Budget’s economic assumptions for ten-year Treasury
2012, respectively. The amount includes the expected liability for death,           notes and bonds.
disability, medical, and miscellaneous costs for approved compensation
                                                                                    NOTE 9—Net Positions
cases. As with all federal agencies CNCS’ FECA liability is determined
                                                                                    Net position consists of unexpended appropriations and cumulative
by the Department of Labor. The actuarial liability is determined using
                                                                                    results of operations. Component balances are separately maintained for
a method that utilizes historical benefit payment patterns related to a
                                                                                    the Gift Fund, Trust Fund and Appropriated Funds.
specific incurred period to predict the ultimate payments related to that


Net Position by Fund Balance Component as of September 30, 2013 (dollars in thousands)	

	                                                Gift Fund	                  Trust Fund	               Appropriated Funds	Total

Unexpended appropriations	                           $	     -	              $	       -	                  $		 809,513 	              $		809,513
Cumulative results of operations	                         644 	                  229,736 	                       (7,416)	     	        222,964
Total Net Position	                                  $	 644 	               $	 229,736 	                 $	    802,097 	            $	1,032,477




Net Position by Fund Balance Component as of September 30, 2012 (dollars in thousands)	

	                                                Gift Funds	                Trust Funds	               Appropriated Funds	Total

Unexpended appropriations	                           $	   28	               $	       -	                  $		 864,803	               $		864,831
Cumulative results of operations	                         633 	                  196,576 	                       (2,837)	     	        194,372
Total Net Position	                                  $	 661 	               $	 196,576	                  $	    861,966 	            $	1,059,203


CNCS is required to report information regarding its financial position             permanently restricted assets. The following table presents CNCS’
according to three classes of net assets (net position): unrestricted,              unrestricted and temporarily restricted net assets.
temporarily restricted and permanently restricted. CNCS has no



Restrictions on Net Position as of September 30, 2013 (dollars in thousands)	

	Unrestricted	
             Temporarily Restricted	Total

Appropriated Funds	                                                       $	802,097	                      $	          -	               $	802,097
Trust Funds		                                                                                -		               229,736 		                    229,736
Gift Funds		                                                                                 -		                   644		                          644
Total Net Position	                                                       $	       802,097	               $	   230,380 	               $	 1,032,477




Financial Statements | PART II 	                                                                                                                            56
The Corporation for National and Community Service




Restrictions on Net Position as of September 30, 2012 (dollars in thousands)	

	Unrestricted	
             Temporarily Restricted	Total

Appropriated Funds	                                                       $	   861,966 	             $	           -	                $	    861,966
Trust Funds		                                                                        -		                  196,576 		                      196,576
Gift Funds		                                                                        28		                       633		                          661
Total Net Position	                                                       $	   861,994 	             $	   197,209 	                 $	 1,059,203



NOTE 10—Appropriations Received by the National Service Trust                  Companion Program (SCP); and the RSVP. The Senior Corps program
For fiscal year 2013, the National Service Trust received $200.719 million     includes grant expenses, as well as direct and allocated personnel and
under the Continuing Appropriations Act, 2013 (Public Law 112-175). For        administrative costs for RSVP, FGP, and SCP. CNCS also has reimbursable
fiscal year 2012, the National Service Trust received $207.561 million         agreements with several state agencies whereby CNCS awards and
under the Consolidated Appropriations Act. The acts also authorized            administers grants to a list of grantees selected and funded by the State
CNCS to transfer additional amounts from subtitle C program funds to           (pass-through grants). The activity related to pass-through grants has
the National Service Trust to support the activities of national service       been reclassified to be associated with the related Senior Corps program.
participants. CNCS transferred $22.8 million and $4.4 million to the Trust
                                                                               Learn and Serve America includes grant expenses, as well as direct and
under this provision in fiscal year 2013 and 2012, respectively.
                                                                               allocated personnel and administrative costs, for the Learn and Serve
NOTE 11—Expenses                                                               America Program, the President’s Student Service Challenge, and National
Using an appropriate cost accounting methodology, CNCS’ expenses have          Service Leader Schools. The Learn & Serve program is no longer funded;
been allocated among its major programs, at the sub-program level.             however, there was on-going activity through FY 2013 as the program
Costs for each sub-program are reported on separately:                         winded down.

AmeriCorps engages members in intense, impact-oriented service to              The National Service Award Expense component consists of CNCS’
address local community needs in areas of education, healthy futures,          estimated expense for education awards based on the increase in its
environmental stewardship, economic opportunity, disaster services,            service award liability during the year and interest forbearance costs on
and assisting veterans and military families. AmeriCorps includes the          qualified student loans during the period members perform community
State, National, Tribes, and Territories (State/National); National Civilian   service. No indirect costs have been allocated to the National Service
Community Corps (NCCC); and Volunteers In Service To America (VISTA)           Award expense component.
programs. The State/National sub-program includes grant expenses, as
                                                                               Innovation, Demonstration, & Assistance Activities (ID&A Activities)
well as direct and allocated personnel and administrative costs including
                                                                               include grants to support and encourage new forms of service and
AmeriCorps recruitment and National Service Trust operations. The
                                                                               volunteering. The most significant program is the Social Innovation Fund
NCCC sub-program includes member stipend and benefits, and direct
                                                                               (SIF). The primary objective of the SIF is to improve the lives of people
and allocated personnel and administrative costs including AmeriCorps
                                                                               in low-income communities by mobilizing public and private sources to
recruitment and National Service Trust operations. The AmeriCorps VISTA
                                                                               grow innovative nonprofit organizations that have evidence of compelling
sub- program includes grant expenses, member stipend and benefits, as
                                                                               impact in the areas of economic opportunity, youth development, and
well as direct and allocated personnel and administrative costs including
                                                                               healthy futures. No indirect costs have been allocated to the Innovation,
AmeriCorps recruitment and National Service Trust operations.
                                                                               Demonstration, & Assistance Activities component.
Senior Corps programs provide opportunities for members 55 and older
                                                                               The Office of Inspector General (OIG) receives a separate appropriation.
to address local community needs in the areas of education, assisting
                                                                               No indirect costs have been allocated to OIG.
veterans and military families, disaster response, and healthy futures.
Senior Corps includes the Foster Grandparent Program (FGP); Senior



Financial Statements | PART II 	                                                                                                                           57
The Corporation for National and Community Service



NOTE 11—Expenses—Continued

Components of Grant Funds Expended for the Period Ended September 30 (dollars in thousands)	

	2013	
     2012		

Domestic Volunteer Service Act Programs	             $	   226,790 	                   $	   227,317
National and Community Service Act Programs		             395,955 		                       407,603
Total Grant Funds Expended	                          $	   622,745 	                   $	   634,920 	




Expenses by Major Responsibility Segment for the Period Ended September 30 (dollars in thousands)	

	2013	
     2012		

AmeriCorps

State and National	                                  $	   595,844 	                   $	   609,046 	

NCCC		                                                     48,216 		                        45,394 	

VISTA		                                                   134,151 		                       138,035

Subtotal	                                                             $	 778,211 	                     $	 792,475


Senior Corps

RSVP		                                                     53,115 		                        51,980

Foster Grandparent Program		                              119,391 		                       119,206

Senior Companion Program	                            $	    50,729 	                   $	    51,129

Subtotal		 223,235 		 222,315

Learn and Serve America		                                                  6,048 		                        17,801

Innovation, Demonstration, Assistance Activities 		                       47,355 		                        34,748

Office of Inspector General (OIG)		                                        3,392 		                         5,241

Total Expenses	                                                       $	1,058,241 	                    $	1,072,580




Financial Statements | PART II 	                                                                                     58
The Corporation for National and Community Service




           Expenses by Type and Sub-Program for the Period Ended September 30, 2013 (dollars in thousands)


           	                                                                 AmeriCorps	                                             National Senior Service Corps	

           Type	                                          State/National	          NCCC	             VISTA	            RSVP	                  FGP	                    SCP	        Learn & Serve	     ID&A Activities	        OIG	             Total	


           Grant and Related Expense

           Grant funds expended	                     $	          344,389 	    $	           -	   $	     31,893 	   $	      45,576 	        $	 105,085 	          $	     44,236 	   $	       5,057 	   $	     46,509 	    $	          -	   $	     622,745

           VISTA and NCCC stipends and benefits		                       -		          8,896 		          54,961 		                -		                   -		                    -		               -		                -		               -		           63,857

           Service award expense		                               171,188 		          8,484 		          19,896 		                -		                   -		                    -		               -		                -		               -		         199,568

           Total Grant and Related Expense		                     515,577 		         17,380 		         106,750 		          45,576 		           105,085 		               44,236 		           5,057 	     	    46,509 		               -		886,170


           Administrative Expense		

           Federal employee salaries and benefits		                40,355 		         4,752 		           7,226		            3,286 		              7,735 		               3,280 		             490 		               -		         2,429 		            69,553

           Travel and transportation		                              2,449 		         5,107 		           1,559		                261 		                603 		                  261		            30 	     	          - 		              72 		         10,342

           Rent, communications, and utilities		                    5,563 		         3,922 		             884		                450 		            1,060 		                    449		            67 	     	          - 		              12 		         12,407

           Program analysis and evaluation		                        1,720 		           63 		              308 		               139 		                328 		                  139 		           24 		               - 		              - 		           2,721

           Printing and reproduction		                                126 		           84 		                  23		             22 		                 23 		                   15		              1		                - 		              - 		               294

           Other services and expenses		                           29,032 		        14,703 		          17,194		            3,300 		              4,365 		               2,268		              363 		            846 		          866 		             72,937

           Supplies and materials		                                   444 		         2,194 		             117		                34 		                 81 		                   34		              9		                -		               13 		          2,926

           Depreciation, amortization, and loss on		 520 		 10 		                                             81		             42 		                 100 		                  42 		             6 		               - 		              - 		               801
           disposition of assets						

           Bad debt		                                                  58 		               1 		               9 		              5 		                 11 		                   5		               1 		               - 		              - 		               90

           Total Administrative Expense		                          80,267 		        30,836 		          27,401		            7,539 		             14,306 		               6,493		              991		             846		          3,392 		          172,071

           Total Expenses by Type	                   $	         $595,844 		        $48,216		         $134,151 		         $53,115 		 $119,391 		                       $50,729 		          $6,048 		        $47,355 		 $3,392 		 $1,058,241




Financial Statements | PART II	                                                                                                                                                                                                                              59
The Corporation for National and Community Service




           This page intentionally left blank




Financial Statements | PART II	                      60
The Corporation for National and Community Service




           Expenses by Type and Sub-Program for the Period Ended September 30, 2012 (dollars in thousands)


           	                                                                AmeriCorps	                                           National Senior Service Corps	

           Type	                                          State/National	         NCCC	             VISTA	           RSVP	                 FGP	                    SCP	        Learn & Serve	    ID&A Activities	        OIG	              Total	


           Grant and Related Expense

           Grant funds expended	                     $	          358,112	    $	           -	   $	     29,387	   $	      46,345	        $	 106,159	           $	     45,426	    $	      15,583	   $	     33,908	     $	           -	   $	     634,920

           VISTA and NCCC stipends and benefits		                       -		         9,571 		          60,951		               -		                  -		                     -		               -		               -		                -		           70,522

           Service award expense		                               182,786		          8,609		           27,028		               -		                  -		                     -		               -		               -		                -		         218,423

           Total Grant and Related Expense		                     540,898 		        18,180 		         117,366 		         46,345 		          106,159 		               45,426 		          15,583 		        33,908 		                -	    	     923,865


           Administrative Expense		

           Federal employee salaries and benefits		                34,919		         9,504		            7,885		           2,497		              5,861		                2,485		            1,251		               -		         3,429		              67,831

           Travel and transportation		                              1,144		         3,217		            1,606		               386		                865		                   380		            37		               -		               98	    	        7,733

           Rent, communications, and utilities		                    4,439		         5,247		              835		               322		                756		                   320		           105		               -		               98		           12,122

           Program analysis and evaluation		                        1,876		          137		               395		               161		                379		                   161		           101		               -		                -		            3,210

           Printing and reproduction		                                 68		            40		                  12		            36		                 16		                    11		              2		               -		                2		                187

           Other services and expenses		                           25,116		         7,460		            9,840		           2,186		              5,060		                2,299		              706		            840		          1,574	       	       55,081

           Supplies and materials		                                   212		         1,603		                  39		            17		                 39		                    17		              6		               -		               40		            1,973

           Depreciation, amortization, and loss on		 322		 5		                                               49		            26		                 61		                    26		              9		               -		                -		                498
           disposition of assets						

           Bad debt		                                                  52		               1		                8		             4		                  10		                    4	    	           1		               -		                -		                80

           Total Administrative Expense		                          68,148		        27,214		           20,669		           5,635		             13,047		                5,703		            2,218		            840		          5,241		            148,715

           Total Expenses by Type	                   $	          609,046	    $	    45,394	     $	    138,035	   $	      51,980	        $	 119,206	           $	     51,129	    $	      17,801	   $	     34,748	     $	 5,241	         $	   1,072,580




Financial Statements | PART II	                                                                                                                                                                                                                           61
The Corporation for National and Community Service




           This page intentionally left blank




Financial Statements | PART II	                      62
The Corporation for National and Community Service



NOTE 12—National Service Award Expense                                CNCS estimates the expense for national service awards based on
Members serving in approved national service positions are eligible   the increase in its cumulative service award liability during the year
to earn a service award to pay for qualified education expenses.      (see Note 6). The total service award liability as of September 30,
The National Service Trust also pays interest forbearance costs       2013 and 2012, respectively, has been adjusted to reflect the fact
on qualified student loans during the period members perform          that earned awards are not always used.
community service.



National Service Award Expense for the Period Ended September 30 (dollars in thousands)

	                                                                                     2013	2012

Estimated education awards	                                                     $	     190,594 	                $	    208,758
Estimated interest forbearance		                                                          8,974 		                      9,665
National Service Award Expense	                                                 $	     199,568	                 $	    218,423




NOTE 13—Change in Unexpended Appropriations, Net

Unexpended Appropriations, Net as of September 30 (dollars in thousands)

		                                                                                     2013	2012

Unexpended Appropriations, Beginning Balance	                                   $	      864,831 	               $	    876,088

Increases:
Appropriations Received		                                                             1,048,884 		                   1,050,870

Decreases:
Appropriated Capital Used		                                                           (808,085)		                    (824,684)
Appropriations Transferred to Trust Fund (net of rescissions)		                       (200,719)		                    (207,561)
Program Funds Transferred to Trust		                                                   (22,849)		                      (4,355)
Rescissions and Cancellations		                                                        (72,549)		                     (25,527)
Total Decreases		                                                                    (1,104,202)		 (1,062,127)

Change in Unexpended Appropriations		         (55,318)		   (11,257) 		
	                                          			
Unexpended Appropriations, Ending Balance	 $	 809,513 	 $	 864,831




Financial Statements | PART II 	                                                                                                               63
The Corporation for National and Community Service



NOTE 14—Contingencies                                                   NOTE 15—Subsequent Events
CNCS is a party to various routine administrative proceedings, legal    CNCS has evaluated subsequent events through December 16, 2013,
actions, and claims brought by or against it, including threatened      which is the date these financial statements were available to be
or pending litigation involving labor relations claims, some of which   issued. As a consequence of its evaluation, CNCS has determined
may ultimately result in settlements or decisions against CNCS. In      that no subsequent events need to be recognized or disclosed.
the opinion of CNCS’ management and legal counsel, there are no
                                                                        NOTE 16—Undelivered Orders at Fiscal Year-End
proceedings, actions, or claims outstanding or threatened that would
                                                                        CNCS’ undelivered orders at September 30, 2013 and 2012 were
materially impact the financial statements of CNCS.
                                                                        $868,598 and $895,614 thousand, respectively.
Certain legal matters to which CNCS is a party may be administered
                                                                        NOTE 17—Apportionment Categories of Incurred Obligations
and, in some instances, litigated and paid by other federal agencies.
                                                                        An apportionment is a distribution by OMB of amounts available for
Generally, amounts paid in excess of $2.5 thousand for Federal Tort
                                                                        obligation. OMB apportions Corporation funds on both a quarterly and
Claims Act settlements or awards pertaining to these litigations are
                                                                        annual basis. Obligations incurred during FY 2013 and 2012 were:
funded from the Treasury Judgment Fund (TJF). Although the ultimate
disposition of any potential TJF proceedings cannot be determined,
management does not expect that any liability or expense that might
ensue would be material to CNCS’ financial statements.



Consolidated Obligations Incurred through September 30 (dollars in thousands)

Fiscal Year	                                                 Direct	                   Reimbursable	                        Total
						
2013	 $	 1,226,901 	 $	 53,039 	 $	 1,279,940

2012	                                                $	 1,255,712	                     $	 19,949	                    $	1,275,661




Financial Statements | PART II 	                                                                                                               64
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com



     INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL OVER
 FINANCIAL REPORTING AND COMPLIANCE WITH APPLICABLE PROVISIONS
     OF LAWS, REGULATIONS, CONTRACTS, AND GRANT AGREEMENTS

To the Board of Directors and Inspector General of the Corporation for National and Community
Service


We have audited the accompanying consolidated financial statements of the Corporation for
National and Community Service (the Corporation), which comprise the consolidated statement
of financial position as of September 30, 2013, the related consolidated statement of operations
and changes in net position, the consolidated statement of cash flows, and the combined
statement of budgetary resources (hereinafter referred to as the “financial statements”) for the
year then ended, and the related notes to the financial statements, and have issued our report
thereon, dated December 16, 2013. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit
Requirements for Federal Financial Statements.

Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements, we considered the
Corporation’s internal control over financial reporting (internal control) as a basis for designing
audit procedures that are appropriate in the circumstances for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the Corporation’s internal control. Accordingly, we do not express an opinion
on the effectiveness of the Corporation’s internal control. We limited our internal control testing
to those controls necessary to achieve the objectives described in OMB Bulletin No. 14-02. We
did not test all internal controls relevant to operating objectives, as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to
ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected, on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the preceding
paragraphs and was not designed to identify all deficiencies in internal control that might be


                                                 1
material weaknesses or significant deficiencies. Given these limitations, during our audit, we did
not identify any deficiencies in internal control that we consider to be material weaknesses.
However, material weaknesses may exist that have not been identified.

We noted certain additional matters involving internal control over financial reporting that we
will report to the Corporation’s management in a separate letter.

Compliance with Applicable Provisions of Laws, Regulations, Contracts, and Grant
Agreements

As part of obtaining reasonable assurance about whether the Corporation’s financial statements
are free from material misstatement, we tested its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts, and certain provisions of
other laws and regulations specified in OMB Bulletin No. 14-02. We limited our tests of
compliance to these provisions and did not test compliance with all laws, regulations, contracts,
and grant agreements applicable to the Corporation. However, providing an opinion on
compliance with these provisions was not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests disclosed no instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards or OMB
Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and
compliance and the results of that testing, and not to provide an opinion on the effectiveness of
the Corporation’s internal control or on compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards and OMB Bulletin No. 14-02 in
considering the Corporation’s internal control and compliance. Accordingly, this report is not
suitable for any other purpose.




Alexandria, Virginia
December 16, 2013




                                                2
                                 Status of Prior Year Findings

In the Report on Internal Control included in the Independent Auditor’s Report on the
Corporation’s 2012 and 2011 Financial Statements, we noted a deficiency in internal control
over financial reporting. Table 1 below summarizes the condition, as reported by us in the prior
fiscal year (FY), and the status of that condition based on our evaluation of this finding in the
current FY.

                Table 1: Prior Year Significant Internal Control Deficiencies

         Control Deficiency                    FY 2012 Status                FY 2013 Status
        Grant Accrual Estimate                Material Weakness                  Closed




                                                3
                      APPENDIX
______________________________________________________
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
             RESPONSE TO DRAFT REPORT
The Corporation for National and Community Service




Memorandium

DATE: December 16, 2013
TO: Deborah Jeffrey, Inspector General
FROM: David Rebich, Chief Financial Officer
SUBJECT: Draft Report on the Corporation for National and Community Service’s (CNCS) FY 2013 Financial Statements




Thank you for the opportunity to respond to the draft report on the results of your audit of the Corporation for National and Community Service’s FY
2013 financial statements. I am pleased that we can report CNCS maintained its record of strong fiscal stewardship for the American people in FY
2013. CNCS received an unmodified opinion on its consolidated financial statements for the 14th consecutive year. The audit also found no instance of
noncompliance with laws and regulations.
I am also pleased that the material weakness in financial reporting related to the estimated grant accruals and three management letter findings
associated with financial reporting contained in the FY 2012 report was corrected. In addition, the audit results for six other management letter findings
indicate that progress was made during FY 2013. Overall, the results reflect CNCS’ commitment to sound financial management and the hard work to
continuously improve financial operations.




                                                      1201 New York Avenue, NW • Washington, DC 20525
                                                           202-606-5000 • www.nationalservice.org
                                                     Senior Corps • AmeriCorps • Learn and Serve America




Independent Auditor’s Report | PART III	                                                                                                               79
